WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

SEP 2 0 2021
OFFICE OF THE CLERK

No.

21-384
Sony Music Entertainment Inc., et al.

Moreh J. Buchanan
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Sony Music Entertainment, Warner Music Group Corp., UMG Recordings, Inc., Sony/AN Music Publishing
LLC

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

9/16/21

(Type or print) Name Previn Warren
0 Mr.

0 Ms.

0 Mrs.

Firm

Jenner & Block LLP

Address

1099 New York Avenue NW Suite 900

City & State

Washington DC

Phone

202-637-6361

0

Miss

Zip 20001
Email pwarren@jenner.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Moreh J. Buchanan
cc:

-RECEIVED
SEP 2 8 2021

2rfatillatab71

